<html>
<title> - OBAMACARE IMPLEMENTATION, THE BROKEN PROMISE: IF YOU LIKE YOUR CURRENT PLAN YOU CAN KEEP IT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
OBAMACARE IMPLEMENTATION, THE BROKEN PROMISE: IF YOU LIKE YOUR CURRENT 
                          PLAN YOU CAN KEEP IT

=======================================================================

                             FIELD HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 6, 2013

                               __________

                           Serial No. 113-70

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform


                  U.S. GOVERNMENT PRINTING OFFICE
86-197                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4027302f002335333428252c306e232f2d6e">[email&#160;protected]</a>  


              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan        Vacancy
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 6, 2013.................................     1

                               WITNESSES

Ms. Juli Dalton, Healthcare worker
    Oral Statement...............................................     9
    Written Statement............................................    12
Ms. Diana Robinson, Retired Administrative Assistant
    Oral Statement...............................................    16
    Written Statement............................................    18
Dr. Steve Montgomery, Veterinarian
    Oral Statement...............................................    19
    Written Statement............................................    21
Ms. Christie Hamman, Realtor
    Oral Statement...............................................    22
    Written Statement............................................    24


OBAMACARE IMPLEMENTATION, THE BROKEN PROMISE: IF YOU LIKE YOUR CURRENT 
                          PLAN YOU CAN KEEP IT

                              ----------                              


                        Friday, December 6, 2013

                   House of Representatives
       Committee on Oversight and Government Reform
                                           Washington, D.C.
    The committee met, pursuant to call, at 10:03 a.m., in City 
Council Chambers, Apache Junction, Arizona, Hon. Darrell E. 
Issa [chairman of the committee] presiding.
    Present: Representatives Issa and Gosar.
    Also Present: Representatives Franks and Schweikert.
    Staff Present: Drew Colliatie, Professional Staff Member; 
John Cuaderes, Deputy Staff Director; Linda Good, Chief Clerk; 
Meinan Goto, Professional Staff Member; Rebecca Watkins, 
Communications Director.
    Chairman Issa. The committee will come to order.
    The Oversight Committee exists to secure two fundamental 
principles. First, Americans have a right to know that the 
money Washington takes from them is well spent. And second, 
Americans deserve an efficient, effective government that works 
for them. Our duty on the Oversight and Government Reform 
Committee is to protect these rights. Our solemn responsibility 
is to hold government accountable to taxpayers, because 
taxpayers have a right to know what they get from their 
government. Our job is to work tirelessly in partnership with 
citizen watchdogs to deliver the facts to the American people 
and bring genuine reform to the Federal bureaucracy.
    Today's hearing is part of a continuing series of field 
hearings done throughout the country to reach out and hear from 
American people outside the Beltway about what their challenges 
are with the Affordable Care Act. In Washington we have brought 
in specialists from all over the country to deal with failures 
of the website, unintended consequences of changes in the law, 
the effects in some cases--Mr. Franks and I have worked 
particularly on the effects of changes made by the President 
that may not be within his constitutional authority.
    But here, we have come to listen to people who are directly 
affected by the implementation of the Affordable Care Act.
    I want to note for the record, these are bipartisan 
hearings, no different than Washington. However, so far, three 
out of three times, my Democratic colleagues have chosen not to 
participate or even ask for a witness to support an alternate 
point of view. I regret that. America is best served when all 
opinions are heard. For that reason, we will include any 
insertions by individuals who have different stories in the 
record. We want to know where the Affordable Care Act is doing 
good in addition to the areas in which it is causing higher 
cost or driving people out of the healthcare they wanted.
    I want to particularly thank today Congressman Gosar 
because we are here in Apache Junction thanks to the city and 
the county, but also thanks to the congressman who helped so 
much in arranging this. Congressman Gosar is now becoming a 
senior member of the committee. He is highly involved in the 
day-to-day of the committee and is one of our most constant 
participants both during and outside of the hearing process.
    Additionally, I want to welcome and ask unanimous consent 
that Mr. Franks be allowed to participate in this hearing even 
though he is not a member of the committee, and without 
objection, that is so ordered.
    The fact is, while the President and other authors of the 
Affordable Care Act repeatedly promised if you like your 
healthcare plan you can keep it, if you like your doctor you 
can keep him, it simply isn't turning out to be true, no more 
than those who were told that there was oceanfront property 
here in Phoenix. The fact is, no matter what you were promised, 
the stark reality of far more people losing their healthcare 
than getting replacement healthcare, far less people finding 
the asset versus the liability of the Affordable Care Act.
    It doesn't change the fact that a law is a law, and we are 
sworn to uphold and defend the Constitution and the statutes as 
they are passed. For that reason, we want to know what is 
wrong, what is happening, and propose legislation that would 
allow us to find a way to bring what was the stated purpose of 
the Affordable Care Act, which was affordable care, to the 
American people.
    All three of us on the dais here today share one common 
view, and that is that government intervention, government's 
attempt to usurp the private sector--thank you, and by 
unanimous consent, you also will be included.
    Mr. Schweikert. Proving you will let anyone sit down with 
you.
    [Laughter.]
    Chairman Issa. Especially if you are local and popular.
    The fact is, we have this obligation and we are here today 
to help fulfill it. For every individual that reported the 
Affordable Care Act enrollment in the state and Federal 
exchanges, more have received cancellation notices. We are not 
limiting our investigation to government agencies and 
government intentions and government meddling in what was 
already a difficult and expensive private-sector market. The 
committee has sent to 15 insurance companies asking them what 
did they know and when did they know it.
    But clearly, the cancellations that are coming now were 
known well before October 1st and were not made available to 
the American people. I have no doubt if the American people had 
known the level of cancellations, the lack of availability, the 
fact that the promise that you can keep the healthcare plan you 
had when, in fact, in every state they are disappearing, and in 
my state, California, they were required to disappear by 
agreement with the state regulatory agency in order to 
participate in the new government exchange sponsored by 
California.
    So here we are in Arizona where, in many ways, you are 
fortunate, at least you think you are, because you don't have a 
state exchange further meddling in implementing Obamacare, but 
you do have the fact that the Affordable Care Act, which 
promised to give you more choice and more competition, didn't.
    According to research from the Heritage Foundation, and 
this is very recent, there are currently 11 insurers offering 
coverage in the Arizona individual market. This decrease in 
market competition in Arizona will lead to higher cost of 
health insurance. The fact is the exchanges have signed up only 
738 people in the Federal exchange in the first month of 
operation.
    The Manhattan Institute published a state-by-state analysis 
of the impact of the Affordable Care Act premiums. According to 
this report, in the average state, the Affordable Care Act or 
Obamacare will increase underlying payments by 41 percent. 
However, in Arizona, the Manhattan Institute estimates at least 
51 percent increase in the first year.
    One of the challenges the Affordable Care Act constantly 
has is you go online or you talk to your insurer and they do 
have a program that costs somewhat similar to your previous 
year. Then you discover that your out-of-pocket costs have 
risen, the amount you pay before anything gets paid, by $2,000, 
$3,000, $4,000, $5,000. We did not sign up for an affordable 
care that simply said the insurance rate will be about the same 
and you will get less coverage, and you will have more out-of-
pocket expenses. And yet, that is what we are finding again and 
again.
    Predictable but unintended when you write a law that says 
individuals working under 30 hours a week need not be covered 
by the mandatory healthcare even though they have a mandatory 
responsibility to buy. This is a double whammy. Part-time 
employees at places like Starbucks and others who previously 
had healthcare may not have it, and yet they have a mandate to 
buy it, the worst of all worlds.
    Lastly, most people here in Arizona know that the biggest 
source for employment will, in fact, be companies who employ 
less than 50 individuals, and all startups that are really and 
truly startups start with less than 50 employees. And yet, that 
very group exempted from it means that as the prices go up and 
it is less affordable, many individuals and companies, small 
businesses less than 50, who previously had plans, often with 
health savings accounts and other benefits they liked, are 
losing them. Again, unintended consequences of government 
intervention.
    When the President's signature law, the Affordable Care 
Act, was passed three-and-a-half years ago along 100 percent 
partisan lines, the Act gave the administration virtually 
unlimited funds to do what it wanted and, more than three years 
later, time to complete all their work. While the control was 
all theirs, so, in fact, is the question why is it in sworn 
testimony before this committee no one would take direct 
responsibility for any of the failures of the healthcare.gov 
website? In fact, we had two chief information officers, both 
of whom said they had nothing to really do with it other than 
showing up to meetings.
    That kind of passing the buck, in addition to what you will 
hear today about the adverse effects to people seeking care, 
has to be changed. The Affordable Care Act will require 
legislative changes. We believe it requires legislative changes 
in order to get government responsible with your money.
    The launch of one of the more famous websites, the eBay 
auction house, over more than six years spent approximately 
$300 million and conducted millions and millions of real-time 
live auctions for a fraction of the cost of the failed 
Affordable Care site. That is just the tip of the iceberg of 
what happens when government gets your money and is not held 
accountable to the American people.
    Today we will do the best we can to bring transparency to 
the failures of the Affordable Care Act so the American people 
can begin appropriately demanding that we take action to fix a 
broken law.
    And with that, I go to Congressman Gosar for his opening 
statement.
    Mr. Gosar. Well, thank you, Chairman.
    First I would like to thank Chairman Issa for making the 
trip to Arizona and holding today's hearing. I strongly believe 
congressional committees should come out to its members' home 
states and hear directly from our constituents regarding the 
struggles that they face from the policies that Congress 
enacts.
    I know there are a lot of demands on your time, as well as 
the committee's time, and I deeply appreciate and am honored 
that we are able to hold this field hearing here in Arizona's 
4th Congressional District.
    I would also like to thank my two colleagues, Congressman 
Trent Franks and David Schweikert, for taking time out of their 
busy Friday for this hearing, but it is an important hearing in 
regards to health which all of us have to have some concerns 
about.
    We are all committed to repealing this onerous law and 
replacing it with policies that increase access to care while 
decreasing premiums.
    Finally, I would like to thank all of you for holding us 
accountable, coming out on your Friday and being part of a 
democratic republic that holds your elected officials 
accountable. I know a lot of people could not be here from the 
long distances, but as the chairman said, we would love to have 
your stories be brought into the record, and you can reach out 
to my staff. Penny Pew is in the front room if you would like 
to direct your stories accordingly.
    We are about understanding what is actually happening with 
what I call the Unaffordable Care Act. Over the past few 
months, my office has been inundated by calls, emails, tweets, 
and Facebook posts from Arizonans frustrated with Obamacare 
implementation. Since its enactment, the President has made a 
variety of promises to the American people that have not been, 
frankly, true. These folks are now dealing with lots of 
problems--lack of choices, higher premiums, higher co-pays, and 
less access to care that they need. In rural Arizona, these 
struggles are particularly amplified in communities that simply 
already have limited access to healthcare providers and an 
unemployment rate that exceeds the state and nationwide 
average.
    Obamacare is a train wreck, full of broken promises that is 
increasing healthcare costs and interfering with the doctor-
patient relationship. Obamacare must be repealed and must be, 
importantly, replaced. That is why I am not shy about saying 
there is a replacement, and I have been a very foremost part of 
that replacement.
    I have worked along with six of my house Republican 
healthcare colleagues for a replacement plan called the 
American Healthcare Reform Act, and it is H.R. 3121 if you 
would like to find it. This is something I am not shy about.
    This initiative does five principal things. It starts with 
a patient-centered, patient-friendly healthcare, not a 
government dictated. It spurs competition to lower healthcare 
costs by allowing Americans to purchase healthcare insurance 
across state lines and enabling small businesses to pool 
together and get the same buying power as large corporations.
    It starts with tax reform. It reforms medical malpractice 
laws in a commonsense way that limits trial lawyer fees and 
non-economic damages while maintaining strong protections for 
the patient.
    It also takes into account tax reforms which allow families 
and individuals to deduct healthcare costs, just like companies 
do, leveling the playing field and providing all Americans with 
a standard deduction for healthcare insurance.
    It expands access to health savings accounts, HSAs, 
increasing the amount of pre-tax dollars individuals can 
deposit in portable savings accounts to be used for healthcare 
expenses, and it safeguards individuals with pre-existing 
conditions from being discriminated against purchasing health 
insurance while bolstering state-based high-risk pools and 
extending HIPAA guarantees for availability of protections.
    Our bill opens up the market, allowing Americans to 
purchase health insurance across state lines, and it drives 
down the cost, expands access to these health savings accounts 
that are a part of a patient's budget.
    This bill is pragmatic. It is practical and portable, a 
free-market alternative to the current healthcare system that 
does not impose more taxes and mandates on American families. 
It facilitates a system that leaves patients and physicians in 
the driver's seat, where they belong. It has garnered the 
support of the majority of my Republican colleagues in the 
House, and I hope we will ultimately enact it into law.
    Thank you again, everyone, for coming out here today. It is 
a pleasure to see so many smiling faces. I think with the blue 
sky, there is a smiling face everywhere in Arizona.
    And, Mr. Chairman, we actually did buy oceanfront property 
in Arizona.
    [Laughter.]
    Mr. Gosar. I yield back.
    [Applause.]
    Chairman Issa. We now go to my friend and fellow member of 
the Judiciary Committee and chairman of the Constitution 
Subcommittee, Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman. I will do like 
so many have done whenever they sit on a committee with you, 
and that is to express their own appreciation for your 
leadership. It is not an easy thing being a captain of 
accountability in the Congress. It is something that brings 
with it great criticism from many corners, and it is very hard 
to be intense enough to maintain true accountability and still 
maintain integrity in the process.
    But Chairman Darrell Issa has done that in an exemplary 
way, and I appreciate him deeply, and I think that this country 
will have a better hope and a better future for his having come 
the way of Washington, D.C.
    And I would also like to express gratitude to David 
Schweikert and to Paul Gosar. These are not only fellow 
colleagues in Congress from Arizona, but they are precious 
friends. We are so fortunate that our delegation, at least 
those represented on this dais, have a sincere commonality and 
comity toward each other and commitment to this country. I 
would suggest to you that if the rest of Congress reflected the 
philosophy and the heart that Paul Gosar and David Schweikert 
have, and Chairman Issa, that I would simply be inclined to 
come home and be with my children more, because I could do that 
with a clear conscience.
    Today, the subject primarily is the Affordable Care Act, 
and I will be pretty brief here. Some of the things have 
already been expressed very eloquently by our chairman. But Mr. 
Obama famously and repeatedly promised Americans who liked 
their healthcare plans that they could keep them. Now, as of 
November 19th, nearly 5 million health insurance policies in 32 
states have already been canceled, and there are indications 
that that is the tip of the iceberg.
    He said if you liked your doctors, you could keep them. Now 
we see stories in the Washington Post about insurers 
restricting the doctors and hospitals available to patients in 
order to keep the costs from the Affordable Care Act down, 
Obamacare down. Mr. Obama promised to lower premiums by up to 
$2,500 per family. But an analysis by the Manhattan Institute, 
as Chairman Issa said, showed that on the average Obamacare 
will increase premiums by 41 percent. And it is especially 
important to repeat that, in Arizona, that rate is 51 percent. 
That is pretty profound for something that was to save us 
money.
    The price tag for this dramatic worsening of our healthcare 
system, a $2 trillion increase in Federal spending over the 
next 10 years.
    Now, I just have to say to you, for the leader of the free 
world to make those statements and then to back away from them 
or to see them clearly in error before the entire country 
either reflects an error in judgment or a lapse in judgment on 
his part, or veracity, one of the two, or both. In either case, 
they represent a significant issue to the American people. If 
both are true, then the implications are fairly sobering, 
especially when we begin to see negotiations going forward with 
the Islamic Republic of Iran on the potential of jihad gaining 
potential access to nuclear weapons.
    It is a very significant thing for the people of this 
country. We have two choices, two ways to try to see good 
policy come about. We either have to elect the right people, or 
we have to try to encourage the wrong people to do right 
things. And I would suggest to you that the latter equation is 
the one before us now. We have to try and see if we can get 
this administration to go in a better direction.
    With that, I believe that there is a hope out there that 
the courts will act on the unconstitutionality in many areas of 
the Affordable Care Act. In 2010, the Supreme Court held 
Obamacare as a tax. The Origination Clause of the Constitution, 
found in Article 1, Section 7 of the Constitution states, ``All 
bills for raising revenue shall originate in the House of 
Representatives.'' I will say to you that that goes back to the 
very genesis of our Constitution. It is what allowed us to come 
together as a country and actually have a Constitution in the 
first place, to make sure that government's most coercive, most 
potentially dangerous power, that of taxation, was kept in the 
body that was most responsive to the people and where the 
people had the ability to make their voice known as quickly as 
possible, that being the House of Representatives. We never 
would have had the Constitution come together, there never 
would have been a compromise at that time for the Constitution 
that we have to actually exist apart from that clause.
    Now, in creating Obamacare, the Senate took an entirely 
unrelated bill that did not raise tax revenues, that was not 
germane to the Affordable Care Act, and struck everything but 
the number and injected the Affordable Care Act in calling it 
the Senate Healthcare Act. Every provision of Obamacare 
originated in the Senate.
    Some of us now, there are 43 of us that have signed amicus 
briefs before the Circuit Court in Washington, D.C. to try to 
challenge that on constitutional grounds. If the Senate in the 
future can take any bill and strike all of its contents and 
raise taxes as high as the Affordable Care Act has done--in 
some cases the people suggested it is the highest tax increase 
in history--if they can do that, then the Origination Clause, 
my friends, is a dead letter. It has no place anymore in the 
Constitution. So they have a pretty stark choice before them.
    With that, I still have some hope. Unfortunately, this 
president is now trying to stack the D.C. Circuit Court of 
Appeals with nominees, and the Senate has acquiesced with that 
effort in doing what they call the ``nuclear option'' to make 
it to where Republicans or the minority does not have a say in 
the confirmation process, as they once did.
    But I still believe that we have great hope, and my 
judgment is that the American people are a lot more in control 
of their faculties than some politicians think, and I hope, as 
Winston Churchill said, the American people always do the right 
thing after they have exhausted every other possibility.
    [Laughter.]
    Mr. Franks. My hope is that we have now seen that we have 
exhausted some of our possibilities with this administration 
and we need to do everything that we can to change direction.
    With that, I am grateful, Mr. Chairman, for your 
forbearance, and I look forward to hearing from our witnesses.
    I welcome all of you. I am grateful that each person is 
here.
    Thank you.
    Chairman Issa. Thank you.
    [Applause.]
    Chairman Issa. It is often said that if you ask a carpenter 
to do something for you, undoubtedly it will include a hammer 
and a saw. So when you bring a constitutional scholar in, 
someone who has worked so much on that issue, there is no 
question what will be part of the solution.
    And with that, going to Congressman Schweikert, who is a 
defender of small business, a leader on the Small Business 
Committee, in addition to Science. I have no doubt that his 
knowledge of the impact to Arizona business is unparalleled.
    Mr. Schweikert?
    Mr. Schweikert. Mr. Chairman, Darrell, it is fun to have 
you out here. Sorry about the beachfront crack, but we are 
waiting for the earthquake where we do get the beachfront 
property.
    Chairman Issa. But we only know that it will split. We 
don't know if we will both get an ocean out of it.
    [Laughter.]
    Mr. Schweikert. You know, I am willing to split the 
difference with you.
    Chairman Issa. The question is, who gets the river.
    [Laughter.]
    Mr. Schweikert. Don't start that. Please, don't start that.
    For those of you know Arizona history, we once had to send 
our army, all 12 of them, to the border to keep them from 
stealing our water.
    To Paul and Trent, we have something unique in Arizona 
right now, at least on our side. We actually have a delegation 
that actually likes each other. You would be amazed how much 
easier it is to work when you have teams around you that 
actually play nice.
    Darrell and for everyone that is here, thank you. You are 
actually in one of the most beautiful pieces of desert, I 
think, in the country.
    I think it was on Wednesday we held an oversight hearing in 
Small Business, and much of the discussion here today will be 
about your access to your doctor, the affordability of your 
healthcare. We held a hearing on something they call the 
business aggregation rule and what it is doing in a cascade 
effect of crushing small businesses.
    So you have a business, you invest in your son's business, 
and as a family partnership you put a little money into a 
Subway shop and do this, you have to keep track of all the 
number of employees in everything you are touching. And if you 
hit the 50 people, all of your businesses now fall under the 
new command and control system.
    We had a series of testimony. Even the witness for the 
Democrats agreed that this was stifling growth and crushing 
small businesses, and now CPAs and advisors all over the 
country are advising people, saying you can't even invest with 
your kids anymore for the danger it might have to the current 
businesses.
    The layer after layer after layer that we are discovering, 
or at least we are finally now getting our friends, our 
brothers and sisters in the media to start reaching out and 
helping us expose, there is so much more to come. Wait until 
the beginning of the new year when you start to see what has 
happened to the actuarial portfolios of the distribution of 
risk within our healthcare industries and what is going to be 
happening there.
    I think, actually, we may have done incredible damage to 
our future markets and our future availability of healthcare, 
and at least we are finally getting help from both the media 
but also from the public reaching out and saying I am 
embracing, I am starting to understand what we have been 
talking about for the last couple of years, and now with what 
is happening to so many of our brothers and sisters around us, 
sadly enough, you are getting to experience.
    And with that, Mr. Chairman, I yield back.
    Chairman Issa. Thank you.
    All members may have seven days in which to submit opening 
statements and extraneous material for the record. 
Additionally, the record will be open for participation of 
individuals here today to submit information for the same seven 
days.
    Chairman Issa. Pursuant to the rule, I ask unanimous 
consent that the gentleman from Arizona, Mr. Franks, and the 
gentleman also from Arizona, Mr. Schweikert, be allowed to 
participate in this hearing and ask questions.
    Without objection, so ordered.
    We now welcome our panel of witnesses. Normally, when we 
introduce people in Washington, we are introducing them with 
lofty titles, Ph.D.'s, although we do have an M.D. here, and 
the story is what institute, what association, what think tank 
are you from. Here today, the most important part of the 
introduction is the city you are from more than, in fact, any 
other title.
    We are honored to have Mrs. Juli Dalton from Prescott, 
Arizona; Ms. Diana Robinson from Chino Valley, Arizona; Dr. 
Steven Montgomery, who is a veterinarian from Blythe, 
California; and Mrs. Christie Hamman, also from Prescott, 
Arizona.
    This is a hearing, and pursuant to our rules, all members 
must be sworn. Would you please rise and raise your right hand?
    Do you solemnly swear that the testimony you are about to 
give here today will be the truth, the whole truth, and nothing 
but the truth?
    Please be seated.
    Let the record reflect that all witnesses answered in the 
affirmative.
    We have a little machine up here, and it is universally 
understood green means go as long as you want, yellow means 
hurry up through the intersection, and red means stop on the 
other side of the intersection. So if you would please stay as 
close to those lights as I am sure you did driving here today, 
it would be appreciated.
    And with that, I believe we are starting with Mrs. Dalton.

                    STATEMENT OF JULI DALTON

    Ms. Dalton. Thank you. As you said, my name is Juli Dalton. 
I am 46 years old. I come from Prescott, Arizona. My husband 
and I live there. We have three children there. We are very 
active in our community and in our church and we believe that 
it is a sacred obligation to take care of ourselves, as 
reflected in our own Declaration of Independence, that we have 
the God-given right to pursue life, liberty and happiness, and 
to provide for ourselves and our own in the way that we see fit 
and the way that we feel is best.
    In that spirit of self-reliance, we decided in 2011 that we 
needed to purchase health insurance for our family. We felt 
uncertain about the future. We didn't know what Obamacare was 
going to hold for us, so we thought that it was prudent that we 
should get ourselves prepared and purchase a plan.
    Our president had assured us that if we had a plan that we 
liked that we could keep it, and so we felt that it was prudent 
to go ahead and provide that for our family. What he didn't 
tell us was that in 2010 there was a deadline, that if we 
didn't meet that, we would not be grandfathered in. We didn't 
understand that. That was never made clear to us.
    Our agent worked very hard to help us find something that 
was just right for us. We chose a plan that had a $375 premium. 
Under this plan, our children were covered until they were 30 
years old, which is better than what we are being told 
Obamacare provides. We already had that. We had better than 
that.
    Each member of the family had a $5 million cap on benefits. 
We felt very secure about that. Prescription coverage was good. 
We were healthy, and we had exactly what we needed.
    In October of this year, our agent called us, and this is 
interesting. It wasn't Blue Cross Blue Shield that called us. 
It was our agent that informed us that we were about to lose 
the plan that we had worked so hard to find. Through the 
Affordable Care Act, it was no longer going to be made 
available to us. He told us that starting the first of the 
year, our cost would be $1,180 a month, which is calculated to 
be a 320 percent increase over what we worked so hard to 
provide for ourselves.
    He offered to rewrite the plan for us so that we could at 
least buy seven months. So we were reduced to planning for our 
family seven months at a time.
    Since then the rules have changed again, and we were 
informed that Blue Cross is now extending the renewal date to 
December 31st of 2014, which is great, but that means six days 
after Christmas next year we are going to receive that huge 
increase in our premium.
    I was asked to comment on how these things impact our 
family. We could opt to pay the 320 percent increase in our 
premium in 2014, but that would be $800 additional a month that 
would have to come out of the family budget. I would like to 
impress upon you what the value is to us of $800.
    It means that we would have to sell both of our cars, or we 
could opt to sell our home and move in with my brother-in-law. 
We could get a second and third job to pay for health 
insurance. I could choose to save money by never going to see 
my dad again, who lives far away. We could suspend all 
charitable giving, which is substantial for our family, and we 
feel that that is a sacred obligation that we take seriously.
    None of these options are workable.
    We could opt to purchase insurance through the government 
subsidized exchanges, but for a family of four at our income 
level, living in Yavapai County, the subsidy is only $252 a 
month, which would still mean that we would experience a 250 
percent increase if we were to purchase on the exchanges.
    Additionally, in Yavapai County, we have been informed that 
three of the five major insurance carriers operating in Arizona 
have pulled out of the exchanges in Yavapai County completely, 
which effectively reduces our ability to find good, competitive 
pricing on the exchange by 75 percent.
    To stay within our budget, we could choose to drop our 
insurance altogether and pay the penalty. This looks good on 
paper, but the reality is that when my husband and I do get 
sick, which now in our middle age is more and more likely as we 
go along, serious disease has the potential to completely wipe 
us out financially, and in the end we could lose everything.
    In short, at this point, we have no good options.
    Thank you.
    [Prepared statement of Ms. Dalton follows:]

    [GRAPHIC] [TIFF OMITTED] T6197.001
    
    [GRAPHIC] [TIFF OMITTED] T6197.002
    
    [GRAPHIC] [TIFF OMITTED] T6197.003
    
    [GRAPHIC] [TIFF OMITTED] T6197.004
    
    Chairman Issa. Thank you.
    Mrs. Robinson?

                  STATEMENT OF DIANA ROBINSON

    Ms. Robinson. Thank you.
    When I first learned about Obamacare several years ago, I 
was hopeful but suspicious. All I could do was wait and see how 
it would affect me.
    At the beginning of this year the first warning sign of 
things to come arrived in the mail when my then insurer, United 
Health Care, informed me that my premiums would be doubling. 
Knowing that I could not afford a higher rate, I found the 
insurance I currently have, which is a policy with Humana for 
$280 per month with a $5,000 deductible, which is barely 
affordable.
    When healthcare.gov was made available, I got online to 
find out what I would be looking at when the Affordable Care 
Act took effect. I was stunned. The premiums were well out of 
my budget, and that was just for the Bronze plans. Since my 
annual income falls under the $46,000 cap, I then applied for a 
subsidy, which I did not want to do. I was happy with my Humana 
policy and didn't want to take government aid for something I 
did not want in the first place.
    I submitted the information on October 31st, Halloween, 
which is a fitting day to do so since I was quickly learning 
how scary Obamacare really was.
    Then I waited, and I waited. After multiple phone calls to 
healthcare.gov, I finally learned last Tuesday that I do 
qualify for a subsidy of $226 per month. After reviewing the 
Marketplace plans I would be able to get insurance for $529 per 
month, which, minus the subsidy, would cost me $303, slightly 
over my current plan. This sounded feasible, until I compared 
the proposed plan and my current one. Maximum out-of-pocket for 
the ACA plan would cost me $1,350 more per year, with an 
additional $276 in premiums. Why would I want to change?
    Needless to say, I am choosing to keep my current plan 
until the end of 2014, when I will be forced to change. So much 
for the ``if you like your current plan you can keep it'' 
promise.
    In the meantime, I received a letter from Humana telling me 
that I had two options for 2014 if I wanted to keep my policy 
with them. I could keep my current plan at $280 per month or 
switch to an ACA-compliant policy at $738 per month. Or--excuse 
me--yes, per month. I was shocked. Again, needless to say, I 
will be sticking with my current policy. More disturbing, the 
difference in the premiums between the two plans was $5,547.12.
    Another significant issue for me is that my income was 
greatly reduced one year ago when I became single. I am now 
faced with the possibility of going back to work. However, 
doing so would most likely push me over the annual $46,000 
subsidy cap, eliminating my subsidy. I would then be working 
mainly to pay for my healthcare premium.
    I now realize the Affordable Care Act has been misnamed. 
And I agree with you, Representative Gosar. It should have been 
renamed the Unaffordable Health Care Act.
    Thank you for allowing me to share my story, and I am so 
grateful to have gentlemen such as you representing us.
    [Prepared statement of Ms. Robinson follows:]

    [GRAPHIC] [TIFF OMITTED] T6197.005
    
    Chairman Issa. Thank you, Ms. Robinson.
    Dr. Montgomery?

                 STATEMENT OF STEVE MONTGOMERY

    Dr. Montgomery. Thank you.
    I enrolled in the American Medical Association Group Health 
and Life Insurance Trust health insurance program upon 
graduation from veterinary school in 1983. I also started a 
health savings account in connection with the plan when they 
first became available. The trust plan was a bona fide 
association plan, a designation given to it by some 
governmental agency. It was offered to AVA members and their 
families.
    The policies were underwritten by a major insurance 
company, most recently New York Life, whose participation in 
the health care market is limited to association plans. The 
policies were good ones. They were affordable, they were 
comprehensive, and they were portable.
    One could see any doctor, go to any hospital, anywhere. 
This is quite important to me as I have lived and practiced in 
four locations in three states in the last 30 years.
    For the past 24 years, I have lived in a very rural area of 
Southern California on the border of Arizona. The nearest towns 
to mine and where my doctors and hospital are located are in 
Arizona. Late last year we were informed by the trust that New 
York Life was no longer going to underwrite the plan as of 
January 1st of 2014. The reasons given, one, that our 
association was no longer bona fide. It had been stripped of 
that status by the Affordable Care Act. And two, since New York 
Life was providing health care to some, it was going to have to 
start providing it for everyone. New York Life has completely 
withdrawn from the health insurance business formally. Attempts 
by the trust to secure another underwriter had been 
unsuccessful.
    When the Affordable Care Act was first announced, I was not 
that concerned as President Obama and prominent members of 
Congress stated emphatically that you could keep your current 
health insurance. They were wrong, and they should have known 
that. I would perhaps excuse Ms. Pelosi since she had not yet 
read the bill, but ignorance, even in my profession, is a poor 
excuse.
    I have not yet secured new health insurance for myself and 
my granddaughter. My wife and I are her legal guardians. I have 
not worked too hard to do so, but in looking on the Internet at 
what is available has so far been disappointing.
    I currently pay about $6,300 per year for the two of us. 
Minimum premiums will go up to $7,400, comparable plans up to 
$9,000. But the most important thing is the out-of-pocket 
expenses. Copays, deductibles are going to be almost three 
times as much, and if I go out of network, such as crossing 
state lines, which I am not certain if that is going to work or 
not, it could be eight to nine times as much as I am paying 
now.
    Being that I am in California or in the California 
exchange, Blue Shield of California, what I have been able to 
see--I cannot find out if I can go into Arizona. It is not 
clear. You ask for providers in Arizona and it comes back as an 
invalid request. Therefore, if I have to stay in California, I 
have to travel an extra 100 miles, and that is no exaggeration, 
to access physicians and hospitals.
    As a veterinarian, I do make a decent living. But after 30 
years in practice, I cannot yet afford to retire. Nobody pays 
for my retirement but myself. No one but me pays for my health 
insurance. Obamacare is probably not going to bankrupt me, but 
it will certainly have an effect on my plans for the future.
    I don't consider myself very old, and I have been fairly 
healthy my whole life, but about the last five years that has 
changed, as one gets older. And now when I need my insurance 
the most, it is being canceled. And I am no expert in the 
healthcare industry, but I did serve on a hospital board for 13 
years, sitting as chairman for 10. My wife for the last 20 
years has been CEO of a small rural hospital, so I am familiar 
with the healthcare industry, and I don't think most people are 
really aware of how deeply and intimately involved the 
government already is in your health care, every aspect of it.
    Certainly, the administration's call for reform is 
laudable. But in my opinion, the reason the current system is 
so screwed up is because the government is so involved in it, 
and reform really should be less involvement of the government 
rather than more.
    Thank you.
    [Prepared statement of Dr. Montgomery follows:]

    [GRAPHIC] [TIFF OMITTED] T6197.006
    
    Chairman Issa. Thank you.
    [Applause.]
    Chairman Issa. Please.
    Mrs. Hamman?

                  STATEMENT OF CHRISTIE HAMMAN

    Ms. Hamman. Well, I thank you for the opportunity to speak 
to you today on this really very important subject to all of 
us.
    My name is Christie Hamman. My husband and I are both self-
employed real estate professionals in Prescott, Arizona. I am 
55 years old, and he is 58. We have been self-employed and 
self-insured for over 30 years. Our family has been fortunate 
enough to be in relatively good health. None of us smoke, and 
so our premiums have always been reasonable.
    It has been our choice to have health insurance with high 
deductibles and low premiums. This has worked well for our 
family. We have insurance presently through Blue Cross Blue 
Shield of Arizona. We have a $5,000 deductible per person. It 
is a policy that is designed for relatively healthy people. We 
have three doctor visits that we get copays a year, and we are 
allowed to have a health savings account where we pay for 
everything as we go, to the point of that deductible.
    Our premiums this last year have been $550 a month for my 
husband and I. We have a college-age daughter, and we have a 
25-year-old son who has yet to have full coverage, to have 
health insurance coverage at his workplace.
    So I would say originally I wasn't particularly 
enthusiastic about a government-run healthcare system or a 
mandate for insurance, but I understood that a lot of people in 
this country could not afford adequate health care and health 
insurance. I was sympathetic to this plight. I expected our 
premiums would rise slightly. I was expecting that. But I had 
no idea what was about to happen to our family.
    When President Obama repeatedly stated that if we liked our 
insurance we could keep it, period, I just didn't imagine what 
I was about to walk into.
    And so I received a cancellation letter from Blue Cross 
Blue Shield in September. I honestly laid it aside and thought, 
well--because they said they would put us in another plan. So I 
laid it aside and I thought not a whole lot about it, until I 
finally called my agent. He said that we would be able to move 
to another Blue Cross Blue Shield plan, and when I talked to 
him he said you will have far better insurance than you have 
now, which sounded good. He said I would have maternity 
coverage and pediatric dentistry, both of which I would have 
been happy to have back in my childbearing years and child-
raising years, but I do not need it now.
    He told us the plan that most resembled our plan would 
still have a $6,000 deductible per person, but my premium would 
now be $1,701 a month. To say the least, I was stunned by the 
increase.
    My husband and I are both in real estate. We make a good 
living. We don't know from year to year what that living is 
going to be, though. So upon the advice of a number of people, 
I was told not to go into the exchange and put in any personal 
information. But they do have a calculator within the exchange 
that you can put in some basic information and be given the 
idea of what your premium would be on the exchange.
    So I put in there that we made $95,000, a hypothetical 
number. There would be no subsidy available if you make over 
$94,200. My premium would be $1,387 a month, $16,642 for the 
year. It is 17.5 percent of our income, equivalent to our 
housing allowance.
    I then estimated that our adjusted gross income, let's say, 
was $89,000, and I was given an estimate of over $8,000 in 
subsidies if we made just under the $94,200. This would equal 
9.5 percent of our household income, a huge difference for a 
few thousand dollars.
    If we were to under-estimate our adjusted gross and take 
advantage of the subsidy, we would owe it back if we made over 
that.
    With premium increases like this, it is a total game-
changer for our family. The thought of healthcare premiums for 
healthy non-smokers costing between 17 and 20 percent of our 
income is truly unbelievable to me.
    We have been offered a reprieve from Blue Cross Blue Shield 
of Arizona, like Mrs. Dalton said, until December of 2014. The 
letter informing us just came last week. If nothing is done 
about the effect that Obamacare is having on the self-insured 
middle class, then next year at this time we will be looking at 
these huge premium increases. This could be the first time in 
our lives that we are left uninsured or making life-changing 
decisions.
    This is not what our president promised us. We have worked 
hard to provide for our family. We have been responsible. We 
have paid our bills, and we pay our taxes. This is not playing 
out as we were promised. I urge you to make changes to the 
Affordable Care Act that is proving quite unaffordable for us. 
Thank you.
    [Prepared statement of Ms. Hamman follows:]

    [GRAPHIC] [TIFF OMITTED] T6197.007
    
    [GRAPHIC] [TIFF OMITTED] T6197.008
    
    [GRAPHIC] [TIFF OMITTED] T6197.009
    
    Chairman Issa. Thank you.
    [Applause.]
    Chairman Issa. I will now recognize myself, first of all, 
for a point of privilege.
    I come to Arizona not as often as John McCain comes to San 
Diego.
    [Laughter.]
    Chairman Issa. But I want you to understand, we think of 
him often as our senator.
    [Laughter.]
    Chairman Issa. But I come to Arizona often, and I have come 
here for many, many years. But in the last three years, I have 
come here more often because of the murder of Brian Terry. In 
just a few days, we will have the third anniversary of the 
killing, the gunning down of Brian Terry with a weapon that was 
released to the drug cartels as a responsibility of Federal 
agents here in Arizona. So I note this day because it is 
another reason that Arizona is a place that I often find 
myself.
    The committee is dedicated to a lot of areas. Today, 
though, I think there are some questions that need to be asked 
of all four of you as representatives of people simply trying 
to insure or cover their family's health care.
    Each one of you, more or less, mentioned the President's 
``if you like your health care.'' I want to ask you a question. 
Do you all like the health care you had a lot more now that you 
have seen the alternative?
    Dr. Montgomery. Absolutely. I always liked it.
    Chairman Issa. To a certain extent, weren't we all--and I 
am going to ask each of you to answer yes or no. But we all 
sort of said, boy, we would sure like an improvement in health 
care. We all thought we ought to be able to do better, and now 
we have seen one alternative that apparently isn't better, and 
it is making us appreciate what we had that, for the most part, 
Americans always thought we could do better. Would you say that 
is true, Mrs. Dalton?
    Ms. Dalton. Yes. In our case, we really appreciated what we 
had because Blue Cross almost denied me over what they were 
calling a pre-existing condition, and we were really relieved 
when we were able to work through that. We got additional 
documentation, and we got the insurance that we wanted.
    And so for us, from the beginning, we were very 
appreciative of it and were afraid for a moment there maybe we 
may not get it. So it really hurts me on a personal level to 
lose it because I worked so hard to get it.
    Chairman Issa. Mrs. Robinson, you were previously covered 
under your husband, and I assume that you had a family policy. 
So it is only in the last couple of years, I am assuming, that 
you have taken the lead role in having to make these decisions.
    What has it been like for you seeing what you had versus 
what now you are facing once this short forbearance goes 
through and 2014 passes?
    Ms. Robinson. It is very, very scary. I have worked really 
hard to be able to be retired. I am 59 years old. I am going to 
be 60 in a couple of months.
    Chairman Issa. All of you are telling us information that 
we would have guessed much younger.
    Ms. Robinson. Oh, your check is in the mail.
    [Laughter.]
    Ms. Robinson. Anyway, so now this is putting a crimp on it. 
I am scared. When I first got that letter that my insurance was 
going to go up to $700-and-something, I cried because I thought 
what am I going to do? I live modestly. I don't know what else 
I can cut out.
    Chairman Issa. Dr. Montgomery, you said you kind of liked 
what you had before, and you are a healthcare professional, so 
you are probably the most knowledgeable. But I will repeat the 
question because it is one that for me, coming to the field, is 
important to understand.
    Before 2010 and during the debate, one in which the 
American Medical Association actually weighed in in favor of 
the Affordable Care Act, were you of the opinion that 
healthcare was a little messed up and we could make it better, 
and we should?
    Dr. Montgomery. Well, first, I am not a real doctor. I am a 
veterinarian. But, yes ----
    Chairman Issa. You know, being a veterinarian is somebody 
who takes care of mammals in a very, very wonderful way for a 
lot less than we take care of ourselves. So I am not sure you 
should ever sell short being a doctor simply because your 
patients don't actually write the check.
    Dr. Montgomery. But sitting on a hospital board for so long 
and seeing the interaction or the meddling, you might want to 
call it, of the Federal Government, certainly there is a need 
for some of that, but you are dealing with a bureaucracy, or an 
ineptocracy, in my opinion, that doesn't really look at solving 
the problem.
    I mean, certainly here are some rules and guidelines that 
you need to follow, but you have to bend those rules now and 
then to make it fit the patient, so to speak.
    Chairman Issa. And you are talking mostly CMS, the Federal 
programs that your hospitals spend so much time working on.
    Dr. Montgomery. Oh, yes. I could tell you stories, like 
what are you people thinking? It is just get out of here, let 
us deal with this, let us solve this problem. So, yes.
    But my health insurance, I never really needed it, but I 
knew it was there. That was the comfort, I knew it was there, 
and I lately started to need it, and it has been good. And now 
suddenly after 30 years of paying into it, and I can't have it 
anymore. I would rather they just left us alone and let us 
continue on.
    Chairman Issa. Mrs. Hamman, I am going to ask you a 
question because you owned up to being, again, much older than 
you look. In the early 1960s, just as Medicare was being 
introduced, the cost of health care was 5 percent of the 
nation's spending, or 5 percent of GDP. Today it is 18 percent, 
heading toward 20 under the Affordable Care Act within a matter 
of a year or two, and that is not dollars. That is actually the 
percentage of all of our wealth, meaning that the number you 
gave is actually pretty predictable, that 20 percent of 
everything made is going to go toward healthcare if we don't 
change the affordable part of healthcare.
    In your view, and I know the doctor here has a lot of 
expertise, but in your view, is that what we should take back, 
is that we should put ``affordable'' into the affordable care 
promise?
    Ms. Hamman. Indeed, indeed. We had a plan that worked for 
us. The market for plans that worked for individuals, that is 
gone. Now it is one-size-fits-all, and we all must pay for what 
we have never paid for in the past. Even in my childbearing 
years, I didn't have maternity coverage. We saved and we paid 
that out of pocket.
    Chairman Issa. If you want them bad enough, you will pay 
for them?
    Ms. Hamman. Yes, yes. So I think for us, because we have 
been able to choose the kind of plan that works for our family, 
and now to have that choice taken from us, I was so surprised.
    At one point, I just wanted to mention--I probably should 
have put this in my testimony--but when I was talking to my 
agent at Blue Cross, he said--I said $1,700 a month, I can't 
even imagine. He said, well, I would suggest you have your 
college-age daughter, take her off your plan and have her go on 
AHCCCS. And I thought we have always paid our own way. You 
really want us to put our--it just seemed like an absurd 
solution that the government is becoming responsible for yet 
more people and their healthcare instead of less.
    Chairman Issa. Of course, if you took one less commission 
in that hypothetical situation, stayed and didn't bother to do 
one sale, didn't do one open house that might lead to a sale, 
you could qualify for $8,000 from your government while 
contributing a fraction less.
    Ms. Hamman. Right.
    Chairman Issa. Only in America.
    Dr. Gosar?
    Mr. Gosar. Ms. Hamman, I want to start with you because you 
led right into my questioning. So you sold real estate.
    Ms. Hamman. Yes.
    Mr. Gosar. Everybody buys the same house, right?
    Ms. Hamman. No.
    Mr. Gosar. So you custom that, right?
    Ms. Hamman. Yes.
    Mr. Gosar. So you sit down, you find out what their need 
is, what they can afford, and you tailor that accordingly, 
right?
    Ms. Hamman. Correct.
    Mr. Gosar. Okay. So what we have seen in government's 
rollout here, whether it be Social Security, whether it be 
Medicare, whether it be Medicaid, it is a one-size-fits-all, 
and that has been our problem. And so now here we have 
something that is very, very personal.
    What do you see in this? Now that you look at it with a 
little different rose-tinted glasses now--I know they are not 
rose-tinted, but what do you see now and what are you 
suspicious of what is coming? Because you know this is just the 
tip of the iceberg, right?
    Ms. Hamman. I think for the first time, and I told you this 
when I first met you, this is the first time I have contacted 
my congressman, and I have never felt the need to. But this, I 
feel as if choices have been taken away from us, choices to do 
what is best for our family. And I think part of the alarming 
nature of it for us is it came so quickly because it had not 
been talked about. Until we got those cancellation letters, we 
didn't really know what was ahead of us, and we were told 
something that proved to not be true.
    I feel like in a community like Prescott, where there is 
not a lot of business there, a lot of self-employed people, a 
lot of self-insured people, we are speaking for a lot of people 
just like us in small communities and for the self-employed.
    Mr. Gosar. Dr. Montgomery, I want to get with you. You 
brought up the portability. You travel along that border, and 
that is where most of my district is, venturing from Arizona to 
California to Nevada. In fact, Bullhead City is a river that 
divides Bullhead City from McLaughlin. So the hospital is on 
the Arizona side.
    This provides a huge problem, and you made mention that you 
would have to drive possibly 100 miles additionally to get 
care. How does that implicate? You sat on a hospital board. How 
does that implicate healthcare delivery?
    Dr. Montgomery. Well, for emergencies, it is significant. I 
mean, if you have a real bona fide emergency, they are going to 
have to fly you to a center. That is quite expensive. I mean, 
it is like $10,000 for a helicopter ride. It varies, but it is 
very expensive. I know when my stepdaughter went into labor, it 
should be two-and-a-half hours across the desert. My wife made 
it, I think, in just under two, at midnight on a Friday. I have 
never been in labor, but I can imagine that type of thing.
    You don't have specialists in rural areas. If you need to 
see a specialist, you have to go out of town. And if some 
specialist will come to the areas, but some don't, but you can 
travel. Like I said, for us to go to Palm Springs, the closest, 
is over 100 miles.
    Mr. Gosar. So you are telling me a simple diabetic shock 
issue could end up in death.
    Dr. Montgomery. Oh, yes.
    Mr. Gosar. Yes, that is what I was getting to.
    Ms. Robinson, you were talking about employment. Is 
employment higher out in rural Arizona than in good downtown 
Phoenix or metropolitan areas across the country?
    Ms. Robinson. If I get an $8.00-an-hour job, I will be 
doing well.
    Mr. Gosar. Yes, that is what I was thinking. This is really 
impacting us, and problems in actually finding that job.
    Ms. Robinson. Exactly.
    Mr. Gosar. Would it cause you repose to know that since 
January 1st of this year, the majority of jobs are part-time 
jobs that are being placed into our economy?
    Ms. Robinson. I have understood that, and I realized again 
that that would probably be the best I could get, unless I got 
two jobs, as I think was stated previously.
    Mr. Gosar. So the big thing we want to know is, you have to 
pay for these premiums. So somebody in our district--we are a 
pretty poor district. The bulk or 80 percent of our seniors are 
dual-eligibles, both Medicare and Medicaid dependent. So it 
would take a family three of those jobs that the President is 
talking about, two to pay for full-time wages and one to pay 
for the benefits. That is striking, isn't it?
    Ms. Robinson. It is ridiculous. It is ridiculous. I wish 
that Obama could put him in K-Mart, let him see what real life 
is like. He obviously has no clue, or doesn't care, I don't 
know.
    Mr. Gosar. The First Lady said they don't do charity.
    Ms. Dalton, one last question. The access to providers in 
Prescott, is it greater or less under this Unaffordable Care 
Act?
    Ms. Dalton. Oh, it is much less. We had a family doctor who 
was in practice for probably 40 years and retired, walked away 
from his practice, just locked the door and left, didn't even 
try to sell the practice, 40 years investing in his practice 
and in his life, and he didn't even try to sell it.
    We had six doctors--I also lost my gynecologist. He moved 
away, moved back east to be closer to family, locked the door 
on his practice and left.
    And it took us probably a good 8 to 10 months to find 
another doctor. Either they weren't taking new patients. We 
finally see a nurse practitioner in a neighboring city.
    So it has been significant. The shortage of doctors is 
significant and notable.
    Mr. Gosar. Thank you, Chairman. I will yield back.
    Chairman Issa. Thank you, Mr. Gosar.
    Mr. Franks?
    Mr. Franks. Well, thank you, Mr. Chairman.
    Mr. Chairman, I have some of my staff members here today--
Lloyd Bostrum, Lisa Tessler, Sherry Ferrington, and Michael 
Jamison over here, along with the wonderful security. Part of 
Michael's job is to keep me from getting shot, and I want to go 
on record saying I hope he does a very good job.
    [Laughter.]
    Mr. Franks. But we really are grateful to our staff. This 
last few weeks, since it has become clear some of the different 
directions that Obamacare intends to take this nation, there 
have been a lot of calls come into our office, and they are 
quite different in nature, according to my staff, than they 
were some months past. We sometimes would get some calls 
criticizing us for being so vociferously against Obamacare, and 
now we are not getting those calls. But we are getting a lot of 
calls that reflect some of the perspectives that have been 
articulated here today, so I am seeing that happen in a big 
way.
    It occurs to me, Mr. Chairman, that the highway of history 
is littered with the wreckage of socialist enterprises. And yet 
it seems the only thing we learn from history is that we don't 
learn from history much. It seems like we are not really paying 
much attention. And ironically, in this case, as in so many of 
the others, the ones that they were ostensibly trying to help, 
the poorest in our society, are the ones that are being hurt 
the most.
    My line of questioning goes like this. In all deference to 
the four of you as witnesses here, you do not represent the 
poorest in our society. You represent middle-class people who 
are out there getting the job done. The discussion here has 
been primarily financial, which is appropriate, but I think 
there is another aspect to this Obamacare that we really need 
to look at carefully, and that is what is going to happen to 
the actual delivery of care.
    One of the dynamics in a socialist effort when the finances 
don't add up, when people start complaining of the cost, they 
start working to diminish the kinds of services that are 
delivered, and that is my greatest concern about this situation 
is that doctors are simply going to say forget it, I am out of 
here, or that the bureaucrats are going to really make it 
difficult for, again, those in the lower economic echelons to 
be able to access care.
    So my first question to you, Dr. Montgomery, is innovation 
in health care, of course, has been one of the things that 
allows us to give the very best care at the cheapest cost and 
maintaining the dignity of the patient, which in my judgment is 
the goal of the healthcare system. Do you think that this is 
going to have a significant impact ultimately on the kind of 
care that some of the bureaucrats will allow to be offered, 
especially with the lower-income people that are on the 
exchanges?
    Dr. Montgomery. Well, that I don't know. First, no one in 
this country is denied care. I mean, the current system, if you 
are held in the ER, they have to take care of you. But now, the 
people that could not afford it are going to be taxed, when 
before they weren't. So I am not sure how they are going to 
work that out.
    But it seems to me there could be a better way to provide--
the whole goal of this was to be able to pay for this. A lot of 
hospitals--the standard at a hospital is to write off 50 
percent of what they charge. That is standard across the 
industry. Hospitals were expensive, but that is not what they 
get paid. That is what they charge, but it is never what they 
get paid. Writing off 50 percent or more is standard.
    The burden on hospitals is these patients that can't afford 
to pay because they are still required to take care of them. 
How that is going to work out, I really don't know, but I can't 
see any other way. Care is going to be limited in some fashion 
because I think fewer people are going to be able to pay for 
it. The government is supposed to step in and do that, but I 
don't see any more money coming in for that. That is what the 
attempt is here, but I don't think it is going to happen. So I 
really don't know. I mean, that is the frightening part to me, 
is what is going to happen in a couple of years.
    Mr. Franks. Mr. Chairman, I guess the next area--the 
question may be a little bit premature. I am afraid that as we 
go forward, we are going to find out that not only is the 
Affordable Care Act unaffordable, but it is not very caring 
either. I am hoping that we can keep our eye on that because, 
after all, isn't that the fundamental goal of health care? 
Sometimes I am always amazed that our friends on the left, who 
say that this is for the poor, forget how bad sometimes this 
actually hurts the poor, and I would like next time we have 
another round, Mr. Chair, to discuss some of the differences in 
the deductibilities or the trend there because I think that 
will be the other area they will try to make up cost.
    Chairman Issa. We will.
    Mr. Franks. Thank you.
    Chairman Issa. Thank you.
    Mr. Schweikert?
    Mr. Schweikert. Thank you, Mr. Chairman.
    In a series of different topics, Ms. Dalton, you almost 
started to cry and started to make me cry. That is just not 
fair.
    Ms. Dalton. I am so sorry. Thank you for the tissue, by the 
way.
    Mr. Schweikert. It is a loving group around here.
    As you were starting to touch on, and Ms. Robinson also 
touched on where you are income-wise, I don't want you to share 
that on record, but as you started to tear up and walk through 
the impact it is having on you and your family's life, part of 
what I think you were trying to share--and don't let me put 
words in your mouth--is you are almost being boxed in, 
incentivized, forced to say if I will make less money, if I 
will game my life, I get this money. And yet you sounded very--
as I hope everyone is--prideful, respectful, that you did not 
want to take that subsidy. Am I being fair?
    Ms. Dalton. That is right. We don't want to take a subsidy. 
We didn't spend all those years in school, my husband, to 
become proficient in a trade just so that he could take a 
subsidy. That is not what we want. And frankly, we find it 
abhorrent that we would spend that much time to become self-
reliant only to then burden our children and our grandchildren 
to pay for something which two months ago we were handling just 
fine.
    And then to find out that even if we did have no problems 
ideologically with the exchange, even if we were comfortable 
with that, to find out that we go on and we only get $250 worth 
of help, it is still--what are we going to do? We can't afford 
the exchange. We can't afford individual policies. What? 
Medicaid? Is that where we are headed, being professionals and 
well-educated professionals?
    Why is it that the government has transformed itself into 
an instrument of plunder? It has taken from us our plan.
    Mr. Schweikert. Look, you are approaching a very powerful 
point here.
    Ms. Hamman?
    Ms. Hamman. Yes.
    Mr. Schweikert. I wanted to make sure because Chairman Issa 
started to touch on it, but that everyone sort of understands 
the math, and I am doing this as you were sort of sharing. If 
you will make $6,000 less, you get $8,167?
    Ms. Hamman. Right.
    Mr. Schweikert. So you are literally--so if you manage your 
life so when you hit your income you just stop, you actually 
make money by minimizing your productivity.
    Wow, the absurdity of it. Darrell, when he introduced me, 
we spend a lot of our time fixated on economic growth and are 
often doing this, and this is going to be probably the next set 
of hearings we are going to have to hold in the beginning of 
the year, of what it is doing there.
    Dr. Montgomery, remember, the GPA for vet students is 
substantially higher than human medical schools.
    Dr. Montgomery. We like to think so.
    Mr. Schweikert. That is what all my vet friends tell me, 
particularly when they are handing me their bill.
    Now, you have been on a hospital board. The hospital was 
actually on the California side of the Colorado River?
    Dr. Montgomery. Yes, yes.
    Mr. Schweikert. So you were under MediCal. In Arizona, 
there is a healthcare cost containment system which we call 
AHCCCS, which is a little unique because we buy capitated HMO 
policies.
    Dr. Montgomery. I am not that familiar with how it works, 
but similar programs.
    Mr. Schweikert. The data that has been presented to our 
offices recently, back in September when we were trying to 
grind through how to get this message out, is that in just a 
couple of years, the doctors who were at the hospital you were 
on the board of will be paid more to see a Medicaid patient and 
an AHCCCS patient than a Medicare patient, and much of the 
compensation will actually come through, I understand, some of 
the exchange providers. It is almost a perversity where now the 
adjustments on compensation, you are almost being incentivized 
to push people to go on to those subsidies.
    Dr. Montgomery. Right, like a single-payer system.
    Mr. Schweikert. Who knows whether that is ultimately where 
we are being driven?
    Mr. Chairman, I will yield back.
    Chairman Issa. Dave, I want to thank you. It is 
interesting, the other day, this week, we had a hearing that 
was on the Affordable Care Act, but it was really on government 
intervention, what the effects were, and I was shocked that my 
ranking member and a couple of colleagues on that side, they 
actually started saying ``single payer'' under their breath, 
which I felt perfectly willing to mention, because that is what 
they really wanted. That was what they wanted. It is just this 
was their incremental step, and it is a little surprising to 
some people, but that actually is what my members, Democratic 
members said during an open hearing.
    Mr. Schweikert. Mr. Chairman, be that if it may that that 
is what they wanted, wouldn't it have been nice if they had 
actually been truthful about that?
    Chairman Issa. Well, Mr. Kucinich was. But for the most 
part, others were not.
    Doctor, I am going to recognize myself for a short second 
round. Having been on a hospital board, I am going to take 
hospitals to task for a moment because there are two areas that 
concern me that are affecting government intervention today, 
and they came out of our hearing earlier.
    One was that the Federal Government currently pays more for 
the exact same procedure if you do it in a hospital than in a 
doctor's office or a clinic. Are you aware of that?
    Dr. Montgomery. No, I was not aware of that.
    Chairman Issa. It is the reason that in urban areas, 
including San Diego, large amounts of clinics are closing and 
doctors are being brought into hospital practices so they can 
do the exact same procedure. And, by the way, if they do it 
under certain rules, they may still be doing it in the clinic, 
but the clinic is now considered a hospital.
    So what you end up with is the Federal Government simply 
reimbursing at a higher level, and you have an experience with 
that. You have seen, I gather from your earlier comments, that 
the existing Federal programs--Medicare and Medicaid being the 
largest--they often cause you to make decisions because you can 
get paid more for doing it one way than doing it another. Isn't 
that true?
    Dr. Montgomery. Oh, absolutely. You are talking about the 
DRGs coding, the diagnostic related groups. It is a game. A 
patient comes in with a problem--well, don't diagnose it as 
that, diagnose it as this because you get reimbursed more for 
it. I mean, hospitals are very labor intensive, so they have to 
pay all these nursing staff because Federal mandates require a 
certain level of staffing which may or may not be realistic. So 
it is just a big game that they all play, and everybody knows 
they are playing it. It is just a game that they play.
    Talking to some physicians, a lot of physicians don't want 
to go into private practice because of all the rules and the 
regulations and the paperwork. They just want to practice 
medicine, so they are going to work in hospitals. They just get 
to practice medicine and the hospital handles all the 
paperwork.
    If I may, getting back to Mr. Franks' question as an 
example, and this really happened, but as an example of the 
thinking on the Federal side, there is a small rural hospital. 
They don't have a full-time surgeon. The surgeon comes from 
another town about 50 miles away, a larger hospital. There are 
multiple surgeons. In terms of level of care, the small rural 
hospital is a primary care facility. This other hospital is 
like a secondary care facility. The surgeon is in the small 
town performing surgery and he receives a call from the other 
hospital--hey, we have a boy who needs an appendectomy. This is 
an emergency. Can we ship him down and you can do it down 
there. Sure, send him on down. That is breaking rule number 1.
    So the boy arrives. The doctor is in surgery. He is talking 
through his mask, admit the boy. So they admit him into the 
hospital, into a bed. As soon as he is ready, they wheel him in 
and they do the appendectomy. That is breaking rule number 2.
    The CMS had a conniption fit over this because you are 
breaking two ----
    Chairman Issa. That is a technical term?
    Dr. Montgomery. What? Conniption fit?
    [Laughter.]
    Dr. Montgomery. Because you are basically breaking two 
rules. Number 1, never in any case should you send from a 
secondary care hospital a case to a primary care hospital. I 
mean, why would you? There is more care, there is more 
availability of care, there is a greater level of care there.
    Second, it is an emergency. He can't be admitted to the 
hospital. He has to go through the emergency room and wait 
there and then go in. You don't get admitted until after 
surgery. But it is more expensive to go through the ER, and he 
has already had all the blood work and the diagnosis. We are 
just getting the bed ready, and as soon as we are ready we will 
wheel him on in.
    The care providers were more than happy to provide the care 
and were diligent in doing so, but the Federal bureaucrats that 
got on to this--I mean, it lasted for months, phone calls, 
emails, I mean just crazy, because you didn't follow the rules. 
But we solved the problem. We resolved the issue. It doesn't 
matter; you didn't follow the rules.
    Chairman Issa. So the problem with the Federal Government 
is that rules-based rather than common sense by the actual 
providers ----
    Dr. Montgomery. Right. And so I can't see the Federal 
Government now--I can only see the delivery of care from that 
side going down.
    Chairman Issa. Let me ask one more question, and you may 
know better than the others. Under the Affordable Care Act, 
there is an elimination of physician-owned hospitals. They are 
no longer allowed. Is Arizona an area in which, particularly in 
rural areas, physician-owned hospitals are often part of the 
solution historically? Or even suburban?
    Dr. Montgomery. I really--I have only been associated with 
public hospitals or corporate-owned hospitals, never physician-
owned.
    Chairman Issa. Here in Phoenix you do have the Mayo Clinic 
Annex, right?
    Dr. Montgomery. I am from Blythe. But, yes.
    Chairman Issa. The funny thing is, the Mayo Clinic, I 
understand, was the Mayo brothers, wasn't it? It was physicians 
caring enough to start a hospital.
    And with that, I go back to Dr. Gosar.
    Mr. Gosar. This is just perfectly leading in.
    Dr. Montgomery, so you are aware of what is coming down the 
road. I mean, I am not going to make this easy for people 
because a number of our folks coming forward, this is your 
first dealing talking to Congress and talking about government. 
So there are things like the SGR, the sustainable growth rate. 
Are you familiar with that?
    Dr. Montgomery. Not ----
    Mr. Gosar. It is actually compensating physicians that 
aren't compensated originally because the government underpays 
them. There is something like $180 billion to that, wherever 
you can find that chump change around. Okay?
    We also have an IPAB board, which gets me back to your 
conniption fit. Okay? So you are going to have unelected 
bureaucrats coming together to tell you what you can do and 
what you can't do, so redefining choice again to each of the 
ladies that we were talking about earlier. Okay?
    I also want to ask you, where in this bill was there tort 
reform? Are you familiar with any tort reform ----
    Dr. Montgomery. I never read it, either.
    [Laughter.]
    Mr. Gosar. Well, I am glad that you--even if you did, we 
were having a conversation ----
    Dr. Montgomery. But I am aware that it is not there.
    Mr. Gosar. There is none, there is none. So I guess my 
point to get to here is that I am a dentist. I believe that we 
need to have health insurance reform, but we need something 
different.
    We just had this hearing on Wednesday, and the Chairman 
said I was having way too much fun, so I am going to have a 
little more fun today. Okay? Because there are opportunities to 
get back to square one.
    Number one is it has to be patient-friendly and patient-
centered because that is what we are talking about. You want 
your doctor to epitomize what is special about each one of you 
and choreograph a health care that is based off of you, and I 
am going to pick on myself.
    I am allergic to wheat. They had some nice doughnuts today. 
I abstained because I am allergic to wheat. Okay? I want a 
healthcare industry that comes to me and says, ``Dr. Gosar, 
because you are allergic to wheat, you have a seven times 
greater chance of getting any type of lymphoma, and we know 
that lymphomas are easily diagnosed early on. So how about, Dr. 
Gosar, if we have you''--you know, doctors don't live by their 
own rules. I mean, we are the worst patients ever.
    But if you were to get diagnostics twice in three years, we 
are going to give you an incentive, does that sound rational to 
you folks?
    Okay, so here is where you want to go. This is what doesn't 
make sense about this law, these common denominators. I want 
the insurance company to work for me, not to work for the man, 
not to work for the government, which is what they do right 
now. Okay?
    Look at your plans. They are all the same. I want them 
tailor-made to me. Okay? That is called reform and repeal, 
McCarran-Ferguson. The only person that is talking about it in 
Congress, right here. What it does is allows the Federal 
Government to break up the insurances to make them compete just 
like we as doctors do. Wouldn't that be something, doc? 
Actually have them competing for our business.
    What is that? It is true. Number two is -
    [Disturbance in hearing room.]
    Chairman Issa. I apologize, but only the witnesses can 
respond.
    Mr. Gosar. We want to make sure that we have the 
opportunity to compare apples to apples, not apples to oranges.
    [Disturbance in hearing room.]
    Mr. Gosar. No. It is perfect information.
    Chairman Issa. Only the witnesses on the dais can respond 
in the hearing, please.
    Mr. Gosar. We want to get everybody on the playing field. 
So what we have coming--and we want tax reform that your money 
is better spent accordingly. So that is why there is 
opportunities to make something better.
    Healthcare isn't a Republican issue. It is not a Democratic 
issue. It is not an Independent issue. It is an American issue. 
And what we have is a failing system. I said it earlier: 
Medicare is failing, Medicaid is failing, Social Security is 
failing because government hasn't looked at the parameters of 
increasing age, increasing technology, and not working with us 
accordingly.
    Part of that responsibility is also us as citizens for not 
holding elected officials accountable, and that is why I 
complimented you folks for coming out today and holding us 
accountable, because that is what you need to do. That is a 
very, very important aspect.
    So a real quick question, Mrs. Dalton. In regards to what I 
was just talking about, this IPAB board that will restrict what 
you can actually have and do, how is that going to hurt your 
options in rural Arizona, in Prescott?
    Ms. Dalton. I am not sure I understand the question.
    Mr. Gosar. So if what they are going to do is limit what 
you can actually provide services for, and now you have fewer 
services being provided and fewer companies providing, is that 
going to make it cheaper or more expensive?
    Ms. Dalton. Oh, it makes it much more expensive. In fact, 
my agent told me that because of the demographics of where we 
live, that getting the same procedure done in Yavapai County is 
$200 or $300 more expensive than if we were to come down to 
Maricopa County. So there is a huge disparity there, even on 
the exchanges. They are much cheaper to enter in Phoenix than 
they are for us in Prescott.
    Mr. Gosar. How would you feel, Mrs. Robinson?
    Ms. Robinson. I would feel the same. We are very limited.
    Mr. Gosar. Ms. Hamman?
    Ms. Hamman. Yes. I mean, we have limited health providers, 
and I think it will only become more of a problem as we move 
forward.
    Mr. Gosar. Thank you.
    I yield back.
    Chairman Issa. Thank you.
    Mr. Franks?
    Mr. Franks. Well, thank you, Mr. Chairman.
    You know, I think it is important sometimes to try to come 
back to Earth and ask ourselves what is the overall ultimate 
overarching goal of healthcare policy. Isn't it to try to see 
everyone be able to have the best healthcare at the least cost 
that maintains their dignity as much as possible? I think that 
is the real question. Sometimes I am afraid that our friends on 
the left would say, well, you know, everyone has a right to 
health care. But what they really mean is that I have a right 
to make you pay for my health care, and that ultimately doesn't 
work out very well. Even if there is a basic disconnect, it 
doesn't work out well in practice.
    You know, in England, Mr. Chairman, they have a government 
controlled healthcare system, and if you have a cold, you call 
a doctor. If you have cancer or heart problems, you call a 
travel agent. You want to get out of there and come where they 
can help. There is now an effort among the people there to kind 
of go around the system, and that leaves, unfortunately, most 
of the poorest people in the society that are the least capable 
of doing these things sort of at the mercy of the government 
system.
    Dr. Gosar's point about IPAB I think is the biggest single 
consideration here. Just as free enterprise is sometimes 
criticized, Mr. Chairman, as being the unequal distribution of 
wealth, socialism has always been the equal distribution of 
poverty. And I am concerned that in this desire to make 
universal health care under government control for universal 
health care, we are going to have instead of the unequal 
distribution of the best health care sometimes, which I wish we 
could fix, we are going to have the equal distribution of poor 
health care.
    Mr. Chairman, it has a greater impact on our society as 
well. In Europe, our poverty level is their average income.
    So I just have to say to you, I don't know where we are 
headed here, and it looks to me like it is really dangerous for 
us to suggest that a government that cannot build a website is 
all of a sudden now capable of handling the entire complexity 
of the healthcare system.
    The bottom line here is I think that the government is 
going to have to try to create ways to make the numbers that 
don't work, work. We have already heard about the premiums. So 
I would like to ask each of the witnesses what do they think 
their opinions are related to the deductibilities that will be 
in these healthcare systems; and, of course, Dr. Gosar's point, 
of the kinds of healthcare that might be restricted to reduce 
the costs in an inefficient government-run system?
    Chairman Issa. Could you suspend for just a moment?
    I would like to announce to the audience--perhaps I should 
have been more strict early on--this is a Federal Government 
hearing under the rules that we all live under. So, please, no 
response from the audience. We would appreciate your continued 
understanding that this is an exchange simply between members 
on the dais and the witnesses, and I would ask everyone to 
respect that or to leave the room. I thank you.
    You may answer.
    You had the question?
    Mr. Franks. Just was wanting to ask the witnesses to tell 
me--as you know, again, it may be a premature question. We know 
about the premium impact, the sort of sticker shock on the 
premium. But what about it seems to me that one of the next 
steps will be to try to increase the deductibilities and try to 
ameliorate the premium issue, and then ultimately to try to 
restrict care to make the numbers work. Do any of you have any 
insight on the deductibility issues?
    Ms. Dalton. Well, I know for us, the plan that we were 
told--we were told the one that we had originally chosen was 
gone and it didn't exist anymore. We had chosen a high 
deductible plan, and the one that was quoted to us as being 
closest to what we already had was that 320 percent increase in 
premium, and the deductible was lower. So they are trying to 
kind of recoup things there.
    As far as quality of care, I think it is premature for me 
to say. I don't know what kind of quality of care we might see, 
if it will be reduced or not. But I can say that since our 
doctor of 12 years retired, we have had to settle for a nurse 
practitioner in a neighboring city. And, you know, she is a 
fine human being, but it is not the relationship we once had. 
It is not the expertise that we once enjoyed. So I can only 
think that perhaps that might be the trend. I don't know.
    Does that answer your question?
    Mr. Franks. If anyone else has any particular insight?
    [No response.]
    Mr. Franks. No?
    Thank you, Mr. Chairman.
    Chairman Issa. Thank you.
    Mr. Schweikert?
    Mr. Schweikert. Thank you, Mr. Chairman.
    But leading right off of where Trent was, Ms. Hamman, when 
you looked at your alternatives in policies, did you maintain 
the relationship with your same doctor?
    Ms. Hamman. If I stay with Blue Cross Blue Shield. We live 
in a small town. Blue Cross Blue Shield is accepted by most 
doctors.
    Mr. Schweikert. Okay.
    Dr. Montgomery?
    Dr. Montgomery. Again, I am not sure. I haven't been able 
to ----
    Mr. Schweikert. You have a unique geographic issue which 
actually is fascinating for a number of our communities out 
here in the West where you cross state jurisdictions.
    Dr. Montgomery. Correct. And I don't know the answer. I 
haven't been able to find out for sure. I just know when I 
access Blue Shield of California, which was the provider of 
most of the plans available, and look for providers, and you 
put in the zip code of the town, it says ``Not a Valid 
Address.'' And I am not certain if the doctors on the Arizona 
side will take that, or if they will be allowed to. I just 
don't know.
    Mr. Schweikert. We will have staff research that.
    Dr. Montgomery. That certainly is of concern to me. I mean, 
if they do, it is maybe not that big an issue. But I do know 
that the premium is going up, and the out-of-pocket is going to 
go up.
    Mr. Schweikert. Okay.
    Ms. Robinson, I know you spent some time looking at what 
your alternatives were, and I accept in rural Arizona you have 
a lot fewer medical professionals. Were you able to keep the 
individuals you have relationships with?
    Ms. Robinson. I called my clinic, and they are not totally 
sure.
    Mr. Schweikert. Okay.
    Ms. Robinson. So I don't know yet.
    Mr. Schweikert. Ms. Dalton?
    Ms. Dalton. I have not inquired into that. Like Mrs. 
Hamman, I just assume that being Blue Cross Blue Shield, 
everyone takes them. I don't think there will be changes in the 
doctor that we have to see at this point. It is just a question 
of how we are going to be able to afford to pay for it.
    Mr. Schweikert. Okay. We actually have some interesting 
numbers that we have been working on, as we started to touch on 
before. In Arizona, our Medicaid system is called AHCCCS, and 
it looks like folks enrolled in AHCCCS plans will actually have 
more medical choices than a lot of those who maintain private 
insurance, which is sort of a fascinating irony.
    Doctor, you have sort of a unique situation because you 
have lived somewhat within the bureaucracy. When you talk to 
folks, because obviously you are from the medical--you have 
been on the hospital board, are you running into discussions 
about keeping my doctor, the cost, the portability, those 
relationships?
    Dr. Montgomery. Well, I have been off the board for about 
five years. But in talking to people in the community, yes, 
that is a concern. But that is of concern to people, yes. But I 
am not certain what effect it is having directly, the nuts and 
bolts and numbers. No, I don't know.
    Mr. Schweikert. Okay.
    Ms. Hamman, you were buying directly from Blue?
    Ms. Hamman. From ----
    Mr. Schweikert. Blue Cross Blue Shield?
    Ms. Hamman. Yes.
    Mr. Schweikert. Okay. Had you looked at any other--were 
there any other opportunities for you--the Realtors 
Association--anything else you were able to find out?
    Ms. Hamman. Well, it was how we started with Blue Cross 
Blue Shield. Originally, it started many years ago as a plan 
that we came in through the Association of Realtors.
    Mr. Schweikert. You actually beat me to it because that is 
how my wife and I were carrying ours for a long time.
    Ms. Hamman. Right, right, right. So, and I think there was 
a 5 percent discount back then. It is not there now.
    Mr. Schweikert. And what other alternatives did you look 
at?
    Ms. Hamman. Well, in our panic--we have a January 1 
renewal. So when I got that letter at the end of September, I 
had to have something in place by January 1st. And so in my 
panic of trying to find health care and realizing what this is 
now meaning for our family and the changes, we looked at United 
Healthcare and Blue Cross. Those were what we were spending 
some time on. We were desperately trying to see if we could get 
on a plan that would start sometime in December in '13 that 
would buy us a year, and gratefully Blue Cross Blue Shield 
extended our plan.
    Mr. Schweikert. Because of that ----
    Ms. Hamman. But that was just last week we got those 
letters.
    Mr. Schweikert. And at least for the next 12 months, you 
will be ----
    Ms. Hamman. We have 12 months of reprieve here, but we will 
be looking at these numbers if nothing is changed.
    Mr. Schweikert. All right. And, Mr. Chairman, knowing the 
rule that when the yellow light is on, talk faster--believe it 
or not, that is what we say--one of the things that I want to 
make sure whoever is trying to get their heads around the size 
and scale of this issue, much of the last month we have all 
fixated on the website. The website was worthy of talking about 
because it was a very easy discussion of a point of access, a 
point to get there. But it is a tiny issue in the scale of what 
we are talking about.
    I know Dr. Gosar has been absolutely a champion on the 
mechanics of how do we access our doctors, how do we make it 
affordable, those things. Many of us have been trying to fixate 
on what does it do in the cascade effect of economic growth. We 
are just starting to learn. Literally every day, we run into 
someone who throws a new wrinkle in crossing state lines.
    Even for members like us who have spent the last couple of 
years doing town halls, talking about what was coming and--
forgive me--having people from the audience yelling at us that 
we weren't telling the truth, and the truth is here. You know, 
we said this was coming, and it showed up. Now we would love to 
have our brothers and sisters on the other side actually be 
willing to work with us instead of just saying no.
    And with that, I yield back. Thank you.
    Chairman Issa. Thank you. I thank you for your closing 
remarks.
    Mr. Gosar, do you have any closing comments?
    Mr. Gosar. Well, I am glad that everybody is out here. I 
appreciate it. We would love to have a bigger venue to have 
more people come. But I think this is a venue that you can 
start to hear some of your colleagues and your constituents 
about actual complaints, about what is transpiring.
    I hope that you will take the opportunity and come to a 
town hall someday, or come out to coffee with your congressman, 
and bring your notebook and your ideas, because one of the 
things that I will tell you I look forward to is reaching out 
to you because Congress doesn't know all the right answers. I 
think all the right answers are right outside, right out there, 
like in the gallery. We just need to be able to come forward.
    I want to applaud Ms. Hamman, Ms. Dalton, Ms. Robinson, and 
Dr. Montgomery for coming forward and sharing your stories.
    The last two things. Starting January 1st, the definition 
of full-time worker now is 30 hours a week, not anything above, 
30 hours a week. So this is going to change. Next year we see 
the employer mandate start complying, just like the individual 
mandate. So this becomes compounded. So everything that you are 
witnessing as individuals, you will see now on the employer 
side. No people are barred from that extravaganza.
    So, thank you very much for coming out here.
    Chairman Issa. Thank you.
    Mr. Franks?
    Mr. Franks. Well, thank you first, Mr. Chairman, for this 
hearing. I think it has been a great hearing, and I also am 
always grateful to be on the same dais with my other colleagues 
here.
    I want to thank the people who provided our security and 
just all of you that came here today. With all of the 
differences that we have, it is probably important to remind 
ourselves that true tolerance is not in pretending we have no 
differences. It is being kind and decent to each other in spite 
of those differences and trying to search for the truth the 
best that we can because this idea of America is unique in the 
history of the world, and we are the most blessed people, I 
believe, on the planet, and I believe that we will find our way 
through these challenges.
    But it is probably important to remind us, remind 
ourselves, that this notion of the reason that government is 
instituted among men is to protect those things like life, 
liberty, and the pursuit of happiness. Those seem like simple 
concepts, almost pass? concepts, but they are the foundation of 
everything because they incent productivity and they are the 
concepts that are the ones that have dragged more of the poor 
people of this country out of poverty and into the best 
lifestyle that any people have ever had than any other system, 
and it is important that we don't jettison that now.
    The reason that this issue of Obamacare has been so 
significant is because it is the antithesis of this idea of a 
free, noble, and productive people that are responsible and 
move forward to do the best they can while doing everything 
that we can to look after our brothers and sisters as we go. 
That is the great miracle of America, and I think it is not 
time to raise the white flag yet. But recent situations do 
remind us that we had better be very vigilant in the elections 
and in the policies that we move forward on in the future.
    Thank you all very much for being here, and thank you 
again, Mr. Chairman.
    Chairman Issa. Thank you.
    I would like to also echo the earlier comments. I want to 
thank our witnesses. I certainly want to thank our audience for 
being respectful. I appreciate our host, including law 
enforcement here today, for hosting this hearing.
    I am going to close with something that I am taking home as 
a takeaway from all four of you. To the greatest extent 
possible, it appears as though your reprieve is simply signing 
up to last year's plan and extending it for most of next year. 
That means that there is a time bomb ticking on our witnesses 
here today, one that does not get them past December 31st of 
next year. And when full implementation of the Affordable Care 
Act goes into effect on the last day of December, just three 
days before if we are reelected we would be sworn in, it will 
be too late to save the programs that you are, in many cases, 
staying extended in.
    Additionally, the way the law worked, the calculations of 
all the benefits and costs were based on an assumption that you 
would not stay in your old plan. The old plans that in some 
cases you are extending are less expensive, but it means that 
that savings that you are enjoying, and rightfully so, means 
that a similar cost by you not going into the other plan, 
meaning that these Federally-subsidized plans are going to be 
more expensive as a result, or lose money.
    That recognition is in stark contrast to something that we 
who have worked as Federal employees are aware of. FEHBP, the 
system that every Federal employee and postal worker has access 
to, will be going up by modest amounts this year. The 8 million 
men and women who work for the Federal Government, including 
the Post Office, will get as much as 82 percent of that cost 
reimbursed, but those programs are less expensive than any of 
the programs you here today testified that you are going to be 
forced into next year.
    That concerns me, that the program that the President of 
the United States is in, FEHBP, Secretary Kerry, Secretary 
Hagel, and all the way up and down the line of, as I said, all 
Federal civilian employees are in, is currently affordable and, 
in fact, stable. It is my goal to try to use the contrast over 
the next few months, along with the committees that many of us 
serve on, to begin offering comprehensive alternatives that are 
free market and that will hopefully give you the kinds of 
programs you want, which may not include your care or things 
that you don't have and don't want. And that is going to be a 
goal.
    I am going to close by saying I respect the Supreme Court 
even if I don't believe I would make the same decision if I 
were honored to be on the Court. We will also hold this 
president accountable that he has to respect the body we serve 
in, and we will do everything we can to try to encourage 
meaningful change and reform that will lead to affordable care 
for the American people and, to the greatest extent possible, 
private choice, something that I believe Americans believe is 
fundamentally one of their greatest rights.
    And with that, we stand adjourned.
    [Whereupon, at 11:43 a.m., the committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
